No. 20-28
INTHE

~upreme ~ourt of tbe Wniteb ~tates
PRICEWATERHOUSECOOPERS LLP,
THE RETIREMENT BENEFIT ACCUMULATION PLAN
FOR EMPLOYEES OF PRICEWATERHOUSECOOPERS LLP,
AND THE ADMINISTRATIVE COMMITTEE TO THE
RETIREMENT BENEFIT ACCUMULATION PLAN FOR

OF PRICEWATERHOUSECOOPERS LLP,
Petitioners,
v.
TIMOTHY D. LAURENT AND SMEETA SHARON,

EMPLOYEES

ON BEHALF OF THEMSELVES AND ALL OTHERS
SIMILARLY SITUATED,

Respondents.

CERTIFICATE OF COMPLIANCE
I hereby certify that I am a member in good standing of the bar of this Court and
that the Supplemental Brief for Petitioners contains 2,999 words and complies with the
word limitation established by Rule 33.l(g)(iv) of the Rules of this Court.
Dated: June 7, 2021

~ n d

